                      U.S. Department of Agriculture

                         Office of Inspector General
                                Great Plains Region




             Audit Report
           Farm Service Agency
Livestock Feed and Compensation Programs




                            Report No. 03099-52-KC
                                   September 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL


                                      Washington D.C. 20250


DATE:         September 30, 2005

REPLY TO
ATTN OF:      03099-52-KC

TO:           Michael W. Yost
              Acting Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Farm Service Agency - Livestock Feed and Compensation Programs

This report presents the results of our audit of the Farm Service Agency Livestock Feed and
Compensation Programs. Your responses to the draft report, dated September 16 and 30, 2005,
are included in its entirety as exhibit C with excerpts and the Office of Inspector General’s
position incorporated into the Findings and Recommendations sections of the report where
applicable.

The September 30, 2005, response advised that with the urgent needs related to Hurricanes
Katrina and Rita, the Deputy Administrator for Commodity Operations has been required to shift
many resources to handle the response to these devastating events and was unable to provide a
response to Recommendations 1 through 5, 11, and 12 at this time. Therefore, we are unable to
accept management decisions for these seven recommendations.            For the other five
recommendations addressed in your response, we accept your management decisions for
Recommendations 6 and 7. Please follow your agency’s internal procedures in forwarding final
action to the Office of the Chief Financial Officer (OCFO).

We are providing a separate memorandum to the agency and OCFO that provides specific
information on the actions to be completed to achieve final action. Final action on the
management decisions for these two recommendations should be completed within 1 year of the
date of this report to preclude being listed in the Department’s Performance and Accountability
Report.
Michael W. Yost                                                                           2


In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken, or planned, and the timeframes for implementation for
Recommendations 1 through 5, 11, and 12. Additionally, to achieve management decisions for
Recommendations 8, 9, and 10, please provide the timeframes for developing and accomplishing
the corrective actions mentioned in the response. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a maximum of
6 months from report issuance.

We appreciate the cooperation and courtesies extended to us by your staff during the audit.
Executive Summary
Farm Service Agency, Livestock Feed and Compensation Programs
(Audit Report No. 03099-52-KC)

Results in Brief   This report presents the results of our review of U.S. Department of
                   Agriculture (USDA) Livestock Feed and Compensation Programs,
                   including the 2002 Cattle Feed Program (CFP), the 2003 Nonfat Dry
                   Milk Livestock Feed Assistance (NDMA), and the 2002 Livestock
                   Compensation Program (LCP). Our overall objective was to evaluate
                   the adequacy of established internal controls to ensure that the forms of
                   assistance afforded livestock producers were only made available to
                   eligible participants for intended purposes of providing supplemental
                   feed to eligible livestock. Our objective included ensuring that
                   participants received correct amounts of feed assistance and that the
                   authorized forms of assistance were administered in compliance with
                   applicable laws, regulations, and procedures. We also evaluated a
                   request from a U.S. Congressman with regard to the propriety of
                   payments made to livestock producers under LCP. Specifically, the
                   Congressman’s request expressed concerns with LCP payments made
                   under expanded eligibility criteria to livestock owners who may not
                   have suffered a loss or damage to their livestock operations.

                   Our review identified material internal control weaknesses in the
                   distribution of nonfat dry milk (NDM) for livestock feed through the
                   2002 CFP. We found that information related to numbers of certified
                   eligible livestock, recommended rates of incorporation of NDM into
                   animal feed rations, and feed dealer capabilities to manufacture or mix
                   livestock feed was not considered in evaluating the reasonableness of
                   feed dealer requests for NDM. The absence of effective controls over
                   the ordering and distribution of NDM resulted in excess quantities of
                   NDM being delivered to specific sites. Inability on the part of feed
                   dealers to timely incorporate NDM into livestock feed products and
                   provide such products to eligible livestock producers led to large
                   quantities of NDM being stored outside where it was susceptible to
                   adverse weather conditions and spoilage. In addition, NDM was
                   shipped to locations outside those States eligible for livestock feed
                   assistance (including foreign countries), and possibly incorporated into
                   products that may have ended up in the human food chain.
                   Furthermore, USDA recourse against program violators was restricted
                   due to the nominal value it placed on NDM, and specific penalties and
                   sanctions were not specified in program contracts and agreements.
                   Within the four eligible States, approximately 50,000 livestock
                   producers received nearly $137 million in feed credits for about

USDA/OIG-AUDIT/03099-52-KC                                                          Page i
                  6 million head of livestock. A total of 242 million pounds of NDM
                  was shipped to over 1,800 feed dealers.

                  Under the 2003 NDMA, Farm Service Agency (FSA) delegated
                  authority for administering certain aspects of the program to the
                  participating State and Tribal Governments. The 2003 assistance was
                  administered by 12 State Departments of Agriculture and seven Native
                  American Tribal Governments and approximately 330 million pounds
                  of NDM was distributed as of November 2004. We noted that the
                  2003 NDMA was not consistently or effectively administered by the
                  States and Tribal Governments. We concluded that the bartering
                  provision instituted by the State and Tribal Governments contributed to
                  the development of secondary markets through which distributed NDM
                  was bought and sold for profit. While FSA was responsible for
                  ensuring that third parties (parties other than eligible producers and
                  participating feed dealers) complied with the NDM distribution and use
                  restrictions, the agency was hampered in its attempts to take action
                  against such parties, as the Department did not hold direct agreements
                  with such third party entities. We further noted that feed dealer
                  agreements developed by State and Tribal Governments were not
                  standardized with respect to specifying the restricted use provisions
                  associated with NDM.

                  We found that allegations of potential program abuse related to the
                  2002 CFP and the 2003 NDMA were not subject to timely follow up by
                  agency officials or referred to the Office of Inspector General (OIG) as
                  required by procedure. Two such referrals involved shipments of NDM
                  to locations outside the designated eligible areas (including overseas
                  shipments to foreign countries) and possibly for ineligible uses
                  including incorporation in human food products.

                  To respond to an inquiry from a U.S. Congressman, we evaluated the
                  appropriateness of payments issued under the expanded eligibility
                  criteria for the 2002 LCP. Specifically, the Congressman was
                  concerned that livestock producers may have received program benefits
                  for disasters that did not result in actual losses to their livestock
                  operations. To address the Congressman’s concerns, we examined the
                  legislative and regulatory language associated with the program;
                  interviewed FSA and Office of the General Counsel officials regarding
                  the program’s eligibility criteria; and analyzed automated program data
                  to ascertain the amounts of payments issued to producers under the
                  established county eligibility criteria.

                  Our review of the legislation and regulations indicated that the
                  expanded eligibility criteria for the Livestock Compensation Program II
USDA/OIG-AUDIT/03099-52-KC                                                       Page ii
                  (LCP-II) allowed for the issuance of payments to livestock producers in
                  non-drought related disasters to receive the same livestock
                  compensation payment rate that was initially established through an
                  economic analysis of drought impacted disaster areas. The initial LCP
                  restricted assistance to producers with livestock operations physically
                  located in drought-stricken counties and applicants were not required to
                  show proof of losses or damages in order to receive payments.
                  However, the Agricultural Assistance Act of 2003 subsequently
                  expanded the disaster eligibility criteria under LCP-II to include other
                  kinds of disasters and emergencies and extended the time period for
                  eligibility. Therefore, for both the initial LCP program and LCP-II, the
                  producer’s eligibility was based on location rather than actual losses.

                  Department officials interpreted the Agricultural Assistance Act of
                  2003 as expanding the number of eligible producers. As a result,
                  producers whose livestock operations were headquartered in States and
                  counties with qualifying disaster declarations, but were not affected by
                  the qualifying events under the initial program, received LCP
                  assistance at a rate equal to those producers whose livestock operations
                  were affected by long-term conditions such as drought.

                  We noted that LCP-II payments of about $159 million were issued to
                  livestock producers in non drought-declared counties. Because
                  producers in these counties were not required to provide proof of loss,
                  we did not contact any of them to determine if they had, in fact,
                  received LCP assistance without sustaining a commensurate loss to
                  their livestock operations. Furthermore, we had no recourse to collect
                  any unwarranted assistance payments because neither the legislation
                  nor the regulations required proof of loss.

                  In addition to reviewing LCP based on the Congressman’s concerns,
                  we also reviewed FSA’s management controls over the LCP and LCP-
                  II programs. Overall, we determined that FSA effectively administered
                  the LCP programs but we did note minor weaknesses related to LCP
                  approval authority and random spot checks. We noted that program
                  applications submitted by USDA employees were not always subject to
                  appropriate approval authority and that random spot checks were not
                  always properly selected or completed at the county office level.

                  On July 16, 2004, the Commodity Credit Corporation (CCC)
                  announced the 2004 Non-fat Dry Milk Livestock Feed Assistance
                  Initiative to provide assistance to livestock producers in States that
                  needed help in maintaining foundation livestock herds as the result of
                  extreme drought conditions. Eligible States and counties were to be
                  determined by FSA using the U.S. National Drought Monitor. State
USDA/OIG-AUDIT/03099-52-KC                                                       Page iii
                  and Tribal allocations of NDM were limited based on available
                  inventories of CCC-owned NDM and 75 percent of the size of
                  foundation livestock herds. Eligible feed dealers entered into restricted
                  use sales agreements with CCC. The agreements specified that NDM
                  would be denatured and sold to feed dealers for $275.00 per truckload
                  (41,500 pounds). The agreements also specified that NDM must be
                  used to feed foundation livestock and prohibited exportation of NDM.

                  We believe that FSA implemented significant actions to alleviate
                  potential abuses in the livestock feed programs, including many of the
                  issues identified in this audit report. FSA’s implementation of the 2004
                  Nonfat Dry Milk Livestock Feed Assistance Initiative incorporated
                  significant improvements that hopefully led to the prevention of NDM
                  abuses. We believe the denaturing of NDM and the additional
                  management controls instituted by FSA should have improved the
                  integrity of the provided assistance. However, we believe FSA needs
                  to further evaluate whether future distributions of NDM can be
                  effectively monitored and controlled to provide reasonable assurance
                  that USDA commodities are used in the manner intended. Absent such
                  reasonable assurance, we suggest that FSA consider other alternatives
                  for providing livestock feed assistance to affected producers.

Recommendations
In Brief
                  Current inventory quantities of NDM are reduced to a level that
                  provides for relatively little surplus commodity beyond the needs of
                  domestic feeding programs. Thus, FSA officials do not foresee a
                  continuation of NDM for livestock feed assistance in the near future.
                  However, agency officials do acknowledge it is likely that at some
                  point in time, USDA will again be involved in purchasing NDM.
                  Because no one can predict when or if future inventory quantities of
                  NDM will reach levels similar to those that existed in 2002 and 2003,
                  we recommended that FSA perform an internal assessment of lessons
                  learned from the 2002 CFP and the 2003 NDMA. The assessment
                  should address areas of noted concern related to the distribution and
                  end use of NDM and aid the agency in developing strategies to provide
                  reasonable assurance that any future allocations of NDM are used for
                  the intended purpose of providing a protein supplement for livestock
                  feed. Developed strategies should encompass possible scenarios
                  including a livestock feed program administered by FSA or a livestock
                  feed assistance initiative administered by State and Tribal
                  Governments. In addition, FSA needs to address a sufficient
                  compliance review program that ensures the proper accountability and
                  disposition of NDM. We also recommended that for future livestock
                  assistance programs FSA establish supplemental eligibility criteria for
USDA/OIG-AUDIT/03099-52-KC                                                        Page iv
                  locations experiencing disasters, such as producer submitted proof of
                  loss or performance of an economic analysis that ties the disaster
                  payment rate to existing conditions within the eligible areas.

Agency Response
                  Due to urgent needs relating to Hurricanes Katrina and Rita, the Deputy
                  Administrator for Commodity Operations was required to shift
                  resources to handle the response to these devastating events and was
                  unable to provide written comments at this time to the seven
                  recommendations (Recommendations 1 through 5, 11, and 12) directed
                  to it. The Deputy Administrator for Farm Programs generally
                  concurred    with    the     recommendations      relating    to   LCP
                  (Recommendations 6 through 10).

OIG Position
                  We concur with proposed actions in the agency response for the five
                  recommendations relating to LCP. Based on the information provided,
                  we accepted management decisions on Recommendations 6 and 7. For
                  Recommendations 8, 9, and 10, FSA needs to provide the timeframes
                  for completing the proposed actions before we can accept the
                  management decisions. For the seven recommendations directed to the
                  Deputy Administrator for Commodity Operations, it will need to
                  provide its response to these recommendations, including the corrective
                  actions taken or planned and the timeframes for implementing any
                  corrective actions.




USDA/OIG-AUDIT/03099-52-KC                                                       Page v
Abbreviations Used in This Report

CCC         Commodity Credit Corporation
CED         County Executive Director
CFP         Cattle Feed Program
CO          County Office
COC         County Committee
ERS         Economic Research Service
FSA         Farm Service Agency
KCCO        Kansas City Commodity Office
KCFO        Kansas City Finance Office
LCP         Livestock Compensation Program
LCP-II      Livestock Compensation Program Phase II
NDM         Nonfat Dry Milk
NDMA        Nonfat Dry Milk Livestock Feed Assistance
OCFO        Office of the Chief Financial Officer
OIG         Office of Inspector General
STO         State Office
USDA        U.S. Department of Agriculture
WLED        Warehouse Licensing and Examination Division




USDA/OIG-AUDIT/03099-52-KC                                 Page vi
Table of Contents
Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ vi

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 5

    Section 1. Controls Not Adequately Established Over the Distribution of Nonfat Dry
                Milk for Livestock Feed Assistance ................................................................ 5

        Finding 1            NDM Diverted for Non-Program Uses into Secondary Markets .................. 5
                                 Recommendation 1 .............................................................................. 12
                                 Recommendation 2 .............................................................................. 12
                                 Recommendation 3 .............................................................................. 12
                                 Recommendation 4 .............................................................................. 12
        Finding 2            Guidance Needed for Effective State and Tribal Administration of the
                             Nonfat Dry Milk Initiatives......................................................................... 13
                                 Recommendation 5 .............................................................................. 16

    Section 2. Livestock Compensation Payments ................................................................. 18

        Finding 3            Proof of Loss or Economic Analysis Needed to Ensure Livestock
                             Payments Are Commensurate with the Loss Incurred ................................ 18
                                 Recommendation 6 .............................................................................. 20
        Finding 4            LCP Application Approval Procedures Not Followed................................ 21
                                 Recommendation 7 .............................................................................. 22
                                 Recommendation 8 .............................................................................. 22
        Finding 5            Spot Checks Not Timely Completed and Procedures for Determining
                             the Number of Spot Checks Required Were Unclear ................................. 23
                                 Recommendation 9 .............................................................................. 24
                                 Recommendation 10 ............................................................................ 25

    Section 3. Potential Program Violations Not Referred to OIG......................................... 26

        Finding 6            Referrals of Potential Program Abuse Not Always Subject to
                             Appropriate Follow Up ............................................................................... 26
                                 Recommendation 11 ............................................................................ 28
                                 Recommendation 12 ............................................................................ 28

Scope and Methodology.............................................................................................................. 29


USDA/OIG-AUDIT/03099-52-KC                                                                                                   Page vii
Exhibit A – Summary of Monetary Results ............................................................................. 32
Exhibit B – Sites Visited ............................................................................................................. 33
Exhibit C – Agency Responses................................................................................................... 34




USDA/OIG-AUDIT/03099-52-KC                                                                                                  Page viii
Background and Objectives
Background                          Based on extreme drought conditions affecting various parts of the
                                    United States, the U.S. Department of Agriculture (USDA) initiated a
                                    series of assistance efforts to help livestock producers with the costs of
                                    obtaining supplemental livestock feed. Three of these assistance efforts
                                    included the 2002 Cattle Feed Program (CFP), the 2003 Nonfat Dry
                                    Milk Livestock Feed Assistance (NDMA), and the 2002 Livestock
                                    Compensation Program (LCP).

                                    2002 Cattle Feed Program

                                    On August 12, 2002, the Secretary of Agriculture announced the
                                    2002 CFP, which authorized $150 million for feed assistance to help
                                    farmers and ranchers with foundation beef cattle herds in Colorado,
                                    Nebraska, South Dakota, and Wyoming. The Farm Service Agency
                                    (FSA) administered the 2002 CFP through the acceptance of producer
                                    program applications, establishment of producer feed credit amounts,
                                    and performance of random spot checks. Eligible livestock producers
                                    submitted program applications at the FSA county office (CO) in the
                                    county and State where eligible livestock were headquartered. The
                                    producer certified to the number of eligible foundation herd livestock
                                    and selected a feed dealer from which supplemental feed would be
                                    obtained. A master listing of approved feed dealers was maintained by
                                    the Kansas City Commodity Office (KCCO) and was available at FSA
                                    COs and on the Internet. Based on the number of certified eligible
                                    livestock, FSA COs established a feed credit amount for each eligible
                                    livestock producer. The producer arranged with the designated feed
                                    dealer to exchange the feed credits for eligible livestock feed. FSA
                                    COs performed random spot checks to verify the accuracy of eligible
                                    livestock certifications.

                                    Feed dealers electing to participate in the 2002 CFP were required to
                                    execute a Cattle Feed Program Agreement with the KCCO Bulk
                                    Commodities Division. The agreement included provisions that the
                                    supplied feed contain nonfat dry milk (NDM) made available from
                                    Commodity Credit Corporation (CCC) inventories and that the savings
                                    associated with use of NDM be passed on to the livestock producer.
                                    The agreement set forth restrictions associated with the distribution and
                                    use of NDM 1 . NDM was priced at $.01 per 55-pound bag and was off

1
  NDM acquired from CCC will only be used in feed made available to eligible producers specified by FSA under the CFP. The contractor shall
report to CCC the quantity of NDM purchased from CCC that exceeds the quantities needed to make feed available under this agreement to
eligible producers. After receiving approval from CCC, the contractor will be allowed to use such NDM in feed for sale to owners of foundation
beef cattle but not for sale to any owner of any other type of livestock.

USDA/OIG-AUDIT/03099-52-KC                                                                                                        Page 1
                  set from monthly invoices submitted by feed dealers to the Kansas City
                  Finance Office (KCFO) for feed credits redeemed by livestock
                  producers. CCC incurred the transportation costs associated with
                  trucking the NDM from selected warehouse locations to requested
                  delivery points.

                  KCCO received downloaded information from FSA COs as to producer
                  certified numbers of eligible livestock, established feed credit amounts,
                  and producer designations of approved feed dealers. KCCO was
                  responsible for accepting feed dealer orders for NDM and arranging for
                  transportation of the NDM to designated delivery points. KCFO was
                  responsible for processing payment of monthly invoices submitted by
                  approved feed dealers, including verification as to the amount of
                  redeemed producer feed credits and offset charges for the cost of
                  delivered NDM.

                  2003 Nonfat Dry Milk Assistance Initiative

                  Due to continuing drought conditions in 2003, additional stocks of
                  NDM were allocated and distributed through the 2003 NDMA. The
                  2003 NDMA differed from the 2002 CFP in two major ways: (1) the
                  2003 assistance was administered by 12 State Departments of
                  Agriculture and 7 Native American Tribal Governments, rather than the
                  FSA; and (2) participating producers could elect direct distribution of
                  the NDM, rather than receiving an NDM supplemented feed product
                  through an approved feed dealer. Restrictions on the use/disposition of
                  NDM included that CCC NDM could only be used for foundation
                  livestock in the State of qualification; the producer could sell/exchange
                  CCC NDM to acquire feed containing NDM; CCC NDM could not be
                  used as a substitute for whey or whey products; NDM could not be
                  used for human consumption; and third parties had to agree to the
                  restrictions and certify to the disposition for the proper use of the
                  NDM, and the products made from it.

                  FSA established the criteria for designating eligible States and Tribes.
                  Each State and Tribal Government was provided with an allocation of
                  NDM based on numbers of eligible foundation livestock as supported
                  by National Agricultural Statistics Service figures and established
                  feeding rations specific to individual animal types. NDM was provided
                  to the State and Tribal Governments at a cost of $1.00 per truckload,
                  with CCC paying the cost to transport NDM from selected warehouses
                  to distribution points designated by the State and Tribal Governments.
                  KCFO invoiced State and Tribal Governments for the $1.00 per
                  truckload cost for delivered NDM. The State and Tribal Governments
                  were responsible for determining producer eligibility and coordinating
USDA/OIG-AUDIT/03099-52-KC                                                         Page 2
                  with USDA for the delivery of allocated NDM. The individual State
                  and Tribal Governments were allowed the flexibility to adjust
                  recommended NDM feeding rations to extend coverage to livestock
                  producers operating in counties affected by other than the most extreme
                  drought conditions.

                  Each participating State and Tribal Government entered into a direct
                  agreement with USDA. The agreement set forth specific restrictions
                  associated with distribution and use of NDM, including that NDM was
                  only to be used to feed foundation livestock, NDM was to be fed within
                  the borders of an eligible State, and that NDM was not to be used for
                  human consumption. Each State and Tribal Government also executed
                  a Multi-State Agreement, which allowed for the transportation of NDM
                  throughout the 12 eligible States and 7 Tribal boundaries.

                  Each State and Tribal Government established its own system for
                  accepting producer applications and designating approved feed dealers.
                  The States and Tribal Governments coordinated with KCCO in placing
                  orders and designating delivery points for allocated quantities of NDM.
                  Producers were allowed the flexibility to receive NDM directly or
                  through a designated feed dealer. In addition, producers were afforded
                  the opportunity to barter their allocation of NDM for a minimum price
                  of $80.00 per ton. The States and Tribal Governments were
                  responsible for monitoring compliance by producers and feed dealers.
                  FSA maintained responsibility for monitoring compliance by third
                  party entities (e.g. participating feed dealers, non-participating feed
                  dealers, commodity brokers, etc.) involved in the purchasing and
                  selling of USDA NDM through the bartering transactions enacted by
                  the State and Tribal Governments.

                  KCCO tracked the total amount of NDM ordered by each State and
                  Tribal Government and coordinated the deliveries of NDM to
                  designated delivery points. KCCO also established a plan to conduct
                  compliance reviews on approximately 5 percent of the distributed
                  NDM and 1 percent of the designated delivery locations. The
                  Warehouse License and Examination Division (WLED) of KCCO was
                  responsible for selecting sites and performing compliance reviews. As
                  of November 2004, approximately 330 million pounds of NDM was
                  distributed through the 2003 NDMA.

                  Livestock Compensation Programs

                  The 2002 LCP was an emergency initiative that provided cash
                  payments to eligible owners and cash lessees of certain types of
                  livestock. Eligible States and counties included those designated by the
USDA/OIG-AUDIT/03099-52-KC                                                        Page 3
                  Secretary of Agriculture as primary disaster areas for damages and
                  losses    due     to    drought    between     January 1, 2001,     and
                  September 19, 2002. Eligible producers included those with livestock
                  operations headquartered in States and counties with qualifying disaster
                  designations. Eligible livestock included beef and dairy cattle, sheep,
                  goats, buffalo and beefalo. LCP payments were based on standard feed
                  consumption rates for each eligible type of livestock. LCP was
                  administered in 2,149 counties, with eligible livestock producers
                  receiving over $857 million in payments.

                  Following passage of the Agricultural Assistance Act of 2003, the
                  2002 LCP was expanded (LCP-II) to make additional counties eligible
                  based on Presidential declarations for major events and emergencies
                  taking place through February 20, 2003. USDA estimated that over
                  700 additional counties were designated eligible for assistance under
                  LCP-II. Assistance payments under LCP-II totaled over $230 million.

Objectives        The objective of our review was to determine whether internal controls
                  were in place and functioning as intended to ensure that assistance
                  afforded livestock producers was made available to eligible producers
                  for intended purposes of providing supplemental feed for eligible
                  livestock herds. We also evaluated a request from a U. S. Congressman
                  regarding the appropriateness of payments issued under LCP-II. The
                  Congressman was concerned that livestock producers may have
                  received unwarranted benefits for disasters that did not result in actual
                  losses to their livestock operations.




USDA/OIG-AUDIT/03099-52-KC                                                         Page 4
Findings and Recommendations
Section 1.   Controls Not Adequately Established Over the Distribution of Nonfat
             Dry Milk for Livestock Feed Assistance

                     FSA did not establish sufficient or effective controls to ensure that
                     distributions of NDM through the 2002 CFP and 2003 NDMA were in
                     fact used for the intended purpose of providing a protein supplement
                     for livestock feed. We noted that excessive distributions of NDM
                     distributed through both the 2002 CFP and 2003 NDMA, combined
                     with authorized bartering provisions for the 2003 NDMA, resulted in
                     the creation of a secondary marketplace through which NDM was
                     purchased and sold for ever increasing profits. We also noted that FSA
                     did not provide adequate guidance or funding to facilitate effective
                     administration of the 2003 NDMA by State and Tribal Governments.

Finding 1            NDM Diverted for Non-Program Uses into Secondary
                     Markets

                     The Secretary of Agriculture instituted the 2002 CFP and the
                     2003 NDMA to help livestock producers in States severely impacted by
                     drought. Through these initiatives, FSA distributed some of the
                     Government’s stock of NDM to feed dealers. Our reviews of the
                     2002 CFP and the 2003 NDMA disclosed that FSA had not instituted
                     controls adequate to ensure that feed dealers ordered only the NDM
                     they needed to supplement feed for producers in their area.
                     Specifically, FSA did not (1) provide for coordination between KCCO
                     divisions to ensure that orders of 2002 NDM submitted by feed dealers
                     were reasonable; (2) correctly estimate the amount of NDM that could
                     be effectively used for the 2003 NDMA; (3) consider the consequences
                     of allowing producers to barter their 2003 allotments of NDM;
                     (4) evaluate the capability of feed dealers to store NDM and
                     manufacture feed containing NDM and limit delivery of NDM to such
                     locations; (5) timely initiate the performance of compliance reviews to
                     insure that NDM was used for intended purposes; and (6) establish a
                     workable and realistic system of penalties and sanctions for
                     noncompliant producers and feed dealers. Noted deficiencies in the
                     establishment of internal controls resulted in feed dealers selling NDM
                     on secondary markets rather than just using it to provide a low-cost
                     supplement to feed provided to livestock producers in drought-stricken
                     areas. We identified situations where NDM was shipped to locations
                     outside those States eligible for livestock feed assistance (including
                     foreign countries), and incorporated into products that may have ended

USDA/OIG-AUDIT/03099-52-KC                                                          Page 5
                  up in the human food chain. Furthermore, there was reduced assurance
                  that the eligible foundation livestock herds utilized NDM.

                    Requests for NDM Not Checked for Reasonableness

                    During the 2002 CFP, feed dealers ordered far more NDM than they
                    could reasonably use for program purposes. Excessive orders for
                    2002 NDM were not initially identified due to a separation of
                    program responsibilities and lack of shared program information
                    between divisions of FSA. As a result, excess NDM was distributed
                    and stock piled, and in some cases eventually found its way into
                    secondary markets.

                    For example, one feed dealer ordered 274 truckloads (11.6 million
                    pounds) of NDM. Based on 2,087 head of cattle from those
                    participating producers who elected to purchase feed from this feed
                    dealer and using 5 pounds of NDM per day for the 40-day feeding
                    period, this feed dealer should have ordered no more than
                    417,400 pounds (10 truckloads) of NDM.           The feed dealer
                    subsequently sold 2,000 tons of NDM on the secondary market at a
                    price of $100 per ton. The feed dealer purchased the NDM for
                    $.01 per 55 pound bag.

                    We also noted that orders for 2002 NDM were processed through the
                    Dairy and Domestic Operations Division of KCCO. This division
                    was responsible for verifying that feed dealers were approved to
                    participate in the program, but did not have ready access to
                    information supporting the numbers of participating producers
                    electing to receive feed credits from each approved supplier or the
                    number of certified eligible livestock. This information was
                    downloaded to another KCCO division from the agency network of
                    FSA county offices. Coordination among the divisions and sharing
                    of information should have provided a basis for early identification
                    of excessive orders of NDM, thus preventing the over distribution of
                    NDM into secondary markets.

                    We also noted that FSA did not effectively utilize NDM delivery
                    information and invoices submitted for payment to detect potential
                    program abuse by feed dealers who provided cattle feed to producers
                    in exchange for feed credits. KCFO evaluated invoices submitted by
                    feed dealers to verify the amount claimed against established
                    producers feed credits to prevent overpayments. However, KCFO
                    was not necessarily familiar with the operational details of the 2002
                    CFP and did not review feed dealer invoices to (1) evaluate the
                    reasonableness of the quantity of NDM in the feed, (2) whether the
USDA/OIG-AUDIT/03099-52-KC                                                       Page 6
                                        cost savings realized by feed dealers was being passed on to CFP
                                        participants, and (3) that producers were charged consistent rates for
                                        feed products they received.

                                        For example, the invoices submitted by one feed dealer showed that
                                        the feed supplied to seven of eight producers would have had to
                                        contain 100 percent NDM based on the number of bags claimed to
                                        have been used. Additionally, the invoices showed this dealer had
                                        charged the producers varying prices for feed containing 100 percent
                                        NDM in violation of its feed dealer agreement 2 (ranging from
                                        $11.50 per ton to $97.50 per ton). Thorough analysis of the
                                        information included on the feed dealer invoices should have raised
                                        questions related to the quantities of NDM ordered and used by
                                        participating feed dealers.

                                        Quantities of NDM that Could be Effectively Used for the 2003
                                        NDMA

                                        For the 2003 NDMA, FSA provided an allotment of NDM to
                                        participating States and Tribes based on the number of eligible
                                        livestock in the State per National Agricultural Statistics Service
                                        statistics, and established NDM feeding rations of 2 pounds per day
                                        for cattle and bison and .5 pound per day for sheep and goats over
                                        the 30-day feeding period. These allocations resulted in excessive
                                        quantities of NDM being distributed and concentrated in certain
                                        locations and/or sold because many feed dealers could not
                                        incorporate all the NDM into feed. For example, one Nebraska feed
                                        dealer stated that only between 2.5 percent and 5 percent NDM was
                                        needed for the feed pellets he manufactured. Based on a daily feed
                                        ration of 40 pounds for cattle, only 1 pound of NDM would be used
                                        at the 2.5 percent level.

                                        Bartering Provision in 2003 NDMA Created Secondary Market for
                                        NDM

                                        Bartering provisions instituted for the 2003 NDMA caused
                                        concentrations of feed in certain locations that ended up being sold
                                        on the secondary market. The barter provisions allowed producers to
                                        obtain at least $80 per ton for their allotments of NDM from feed
                                        dealers or third parties that they could use to purchase other livestock
                                        feed in a usable form. For example, one feed dealer stated that in
                                        order to keep his customers for the 2003 initiative, he accumulated a
                                        3 to 4 year supply of NDM instead of the 1 year supply needed to

2
    Cattle Feed Program Agreement, Form FSA 552.

USDA/OIG-AUDIT/03099-52-KC                                                                             Page 7
                    incorporate NDM into feed. The feed dealer stated he had to rent
                    additional warehouse space to store NDM in inventory. The feed
                    dealer subsequently sold 93 truckloads or 1,900 tons of 2003 NDM
                    to a commodity broker on the secondary market. We noted other
                    approved feed dealers bartered for NDM not only from their own
                    customers, but also other feed dealers that had excess NDM or the
                    rights to NDM. We found that one feed dealer credited its customers
                    up to $140 per ton for USDA NDM. Even at $140 per ton, NDM
                    was cheaper than the market price of other feed components having a
                    similar protein such as soy meal, but which was valued at over
                    $200 per ton during the same period. We noted that the market
                    values of feed ingredients increased dramatically during the
                    2003 NDMA program resulting from adverse crop conditions.
                    These market conditions further exacerbated the incentive for feed
                    dealers to sell NDM on the secondary market.

                    Feed Dealer Facilities Not Inspected Prior to Shipment of NDM

                    FSA did not screen feed dealers to determine if they had the facilities
                    to store NDM or incorporate it into livestock feed. For example, one
                    feed dealer requested delivery of 310 truckloads of NDM to a
                    location where most of NDM was stored outside where it was
                    susceptible to adverse weather conditions and spoilage. A second
                    feed dealer requested delivery of 222 truckloads of NDM, all of
                    which was stored outside. Several feed dealers who obtained NDM
                    stated it was difficult to incorporate into feed and very hard on
                    machinery. One feed dealer stated bearings on mixing machinery
                    had to be replaced twice as often when mixing NDM into livestock
                    feed. Another feed dealer stated NDM created so much dust when
                    mixed into feed that complaints from the community were received,
                    requiring relocation of the mixing operations to remote locations.




USDA/OIG-AUDIT/03099-52-KC                                                        Page 8
                                     Photo of Excess NDM

                    In evaluating the capabilities of feed dealers to store and mix NDM,
                    we noted that FSA granted waivers to about one third of the
                    approved feed dealers under the 2002 CFP from the requirement
                    NDM had to be included in cattle feed. The justifications offered for
                    requesting waivers included lack of storage space, unavailability of
                    feed manufacturing equipment, and lack of sufficient financial
                    resources. The volume of waivers requests received and granted,
                    combined with the justifications provided, should have served notice
                    for FSA to question the reasonableness of distributing NDM for
                    incorporation into livestock feed.

                    FSA also did not limit feed dealers to accepting deliveries of NDM
                    at specified business locations maintained by the feed dealer. Under
                    both the 2002 CFP and the 2003 NDMA, feed dealers were allowed
                    to designate alternate delivery points or change delivery destinations
                    up through the point of contact with the transportation company
                    responsible for delivery of NDM. Other than relying on the integrity
                    of the feed dealer, FSA had no assurance that NDM was delivered to
                    eligible locations for authorized purposes. We also noted that FSA
                    had not developed a strategy or plan for assuring the proper
                    disposition of excess NDM on hand at feed dealers at the conclusion
                    of the 2002 CFP. For the 2003 NDMA program, FSA encouraged
                    feed dealers with excess NDM, from the preceding program, to
                    notify participating States and Tribal Governments that NDM was
                    available for use in augmenting their established allocations.

USDA/OIG-AUDIT/03099-52-KC                                                        Page 9
                    Internal Controls Instituted by FSA since the Initiation of the 2002
                    CFP and 2003 NDMA

                    FSA did not originally establish a compliance plan during the
                    2002 CFP to perform site visits of feed dealer locations to verify the
                    delivery and use of NDM as a protein supplement for livestock feed.
                    In response to allegations of improper distribution and use of NDM,
                    FSA developed a compliance review plan that called for inspection
                    of only 1 percent of the delivery point locations and 5 percent of the
                    distributed NDM during the 2003 NDMA. USDA received reports
                    that as much as 22,000 metric tons of NDM allocated for livestock
                    feed assistance was exported to Europe, with implications related to
                    the General Agreement on Tariffs and Trade. Also, there were
                    complaints about and evidence of NDM being shipped to Mexico,
                    labeled as food product, with potential for violation of the North
                    American Free Trade Agreement. (See Finding 6, case currently
                    under investigation.)

                    Lack of Penalties and Sanctions Encouraged Feed Dealers to
                    Request Additional Stocks of NDM

                    FSA did not establish an effective system of penalties and sanctions
                    for identified cases of noncompliance by feed dealers under the
                    2002 CFP or the 2003 NDMA.                For example, feed dealers
                    maintaining excessive quantities of 2002 NDM could only be
                    encouraged, and not required, to donate excess NDM to State and
                    Tribal Government programs as the feed dealers legally owned the
                    NDM based on their purchase price of $.01 per bag. The Office of
                    the General Counsel stated that producers and feed dealers found to
                    be noncompliant with provisions of the 2002 CFP could be required
                    to repay the value of the improperly distributed and used NDM
                    established at the rate of $.01 per bag rather than the market value or
                    the CCC acquisition and donation costs for the NDM. No provisions
                    for assessment of liquidated damages were established, nor were
                    specific criminal and civil statutes or penalties referenced in program
                    contracts or agreements with the feed dealers even though they were
                    required to certify compliance with program provisions in the forms
                    they signed.

                    With respect to the 2003 NDMA, FSA was limited in its authority to
                    apply penalties or sanctions against feed dealers, because USDA did
                    not enter into direct agreements with the feed dealers. Under the
                    2003 NDMA, USDA entered into agreements with the State and
                    Tribal Governments, who in turn entered into agreements with
USDA/OIG-AUDIT/03099-52-KC                                                       Page 10
                    approved feed dealers.        This chain of agreements presented
                    difficulties with respect to USDA pursuing corrective action against
                    feed dealers, particularly related to pursuit of potential criminal
                    prosecution. KCCO personnel stated they did not have authority to
                    initiate punitive actions against program violators under the
                    2003 NDMA. KCCO personnel believed their only available
                    recourse towards noncompliant feed dealers was to discontinue
                    future deliveries of any NDM requested for delivery to sites
                    operated/used on behalf of the identified feed dealers.

                    2004 Nonfat Dry Milk Livestock Feed Assistance Initiative

                    On July 16, 2004, the Secretary of Agriculture announced a
                    2004 Nonfat Dry Milk Livestock Feed Assistance Initiative that
                    provided for additional distributions of NDM through State
                    Departments of Agriculture and Native American Tribal
                    Governments. While the basic delivery system resembled that which
                    was established for the 2003 NDMA, a number of changes were
                    enacted to help address problem areas identified during review of the
                    2002 CFP and the 2003 NDMA. Notable changes include a
                    reduction in the allocated quantity of NDM for each State and Tribal
                    Government, direct agreements between CCC and designated feed
                    dealers that specified how the NDM was to be distributed and used,
                    and identification of the specific locations to which NDM would be
                    delivered. The agreements also included provisions for assessment
                    of liquidated damages and applicability of civil and criminal
                    penalties.
                    While these changes should have improved the distribution of NDM
                    for supplemental livestock feed assistance, additional analysis would
                    be needed to determine whether additional control measures were
                    necessary to further improve the allocation and distribution of NDM
                    in achieving Departmental goals.

                    Since the implementation of the 2004 NDMA initiative, the amount
                    of available inventory quantities of NDM has been dramatically
                    reduced. FSA officials do not currently foresee the continuance of
                    using NDM for livestock feed assistance. However, no one can
                    predict when and if future inventory quantities of NDM will become
                    available. Therefore, we believe that now is the time for FSA
                    officials to evaluate the lessons learned from the previous livestock
                    feed assistance programs and develop strategies in case NDM again
                    becomes available for future livestock programs.



USDA/OIG-AUDIT/03099-52-KC                                                      Page 11
Recommendation 1

                   For any future livestock feed programs involving feed credits and the
                   distribution of NDM as a protein supplement, develop sufficient
                   internal operating procedures to ensure there is coordination among
                   FSA divisions so that the amount of NDM requested is consistent with
                   NDM allocation based on livestock numbers and with NDM amounts
                   transported.

Recommendation 2

                   Perform a post operational review of the 2002 CFP and the 2003 and
                   2004 NDMA Initiatives and develop recommendations for future NDM
                   assistance programs based on an analysis of best practices/lessons
                   learned. The review should consider the amount of NDM that can
                   realistically be incorporated into livestock feed products and the
                   effectiveness of the bartering provisions on the Departmental goal of
                   providing a protein supplement for livestock feed. Use this information
                   in determining reasonable allocations of NDM for distribution to
                   producers in order to mitigate the potential amount of unused NDM
                   available for unauthorized uses.

Recommendation 3

                   Develop standards and institute an approval process for feed dealers
                   similar to that for approved USDA warehouses, including pre-approval
                   visits, to ensure that feed dealers have the facilities and resources to
                   effectively incorporate NDM into livestock feed.

Recommendation 4

                   Establish a compliance review program including examination
                   procedures that provides for periodic inspection of a sufficient number
                   of feed dealer sites to ensure proper accountability and use of NDM,
                   including record keeping requirements for sales of NDM on secondary
                   markets. This program should include procedures for determining the
                   amount of unused NDM on hand at suppliers at the conclusion of each
                   program and monitoring the proper disposition of any excess NDM
                   quantities.

                   FSA Response.

                   Due to urgent needs relating to Hurricanes Katrina and Rita, the Deputy
                   Administrator for Commodity Operations has been required to shift
USDA/OIG-AUDIT/03099-52-KC                                                       Page 12
                                     many resources to handle the response to these devastating events. Due
                                     to this shift of resources, it could not provide comments to these
                                     recommendations.

                                     OIG Position.

                                     Since FSA could not provide comments to these recommendations, we
                                     are unable to reach management decision on these recommendations.
                                     In order to reach management decision, we need the agency’s
                                     comments as to its concurrence or non-concurrence with the
                                     recommendations, corrective actions taken or planned, and timetables
                                     for implementing the corrective actions.




Finding 2                            Guidance Needed for Effective State and Tribal
                                     Administration of the Nonfat Dry Milk Initiatives

                                     Under the 2003 NDMA, FSA delegated authority for administering
                                     certain aspects of the assistance to the participating State and Tribal
                                     Governments. We noted that the State and Tribal Governments did not
                                     consistently administer the 2003 NDMA or encountered problems with
                                     (1) the bartering provision, which allowed producers to barter their
                                     allocation of NDM for a minimum value of $80 per ton, and the
                                     development of State and Tribal agreements with feed dealers,
                                     (2) adjustments of recommended daily feeding rations and designations
                                     of additional eligible counties, and (3) inconsistencies in developing
                                     and carrying out compliance activities. Problems in these areas
                                     occurred because FSA delegated authority for administering the
                                     assistance to these entities without either adequate funding or sufficient
                                     direction to carry out these responsibilities. Ineffective administration
                                     of livestock feed assistance functions by State and Tribal Governments
                                     reduced the level of assurance that livestock certifications were
                                     accurate and that NDM was properly distributed for authorized
                                     purposes.

                                     Under the 2003 NDMA, FSA executed agreements 3 for State and
                                     Tribal Governments to administer the assistance.            Under the
                                     2003 NDMA, the State and Tribal Governments were responsible for
                                     establishing eligibility requirements for producers, ensuring that only

3
  Each participating State Department of Agriculture and Native American Tribal Government entered into a direct agreement with the USDA.
The agreement set forth specific restrictions associated with distribution and use of the NDM, including that the NDM was only to be used to feed
foundation livestock, the NDM was to be fed within the borders of an eligible State, and that the NDM was not to be used for human
consumption. The States and Tribes also executed a Multi-State Agreement, which allowed for the transportation of NDM throughout the 12
eligible States and seven Tribal boundaries.

USDA/OIG-AUDIT/03099-52-KC                                                                                                         Page 13
                  producers of foundation herd livestock received NDM, and requesting
                  NDM from USDA. FSA was responsible for supplying NDM and
                  directing the transportation of NDM to the requested delivery location.
                  Also, FSA was responsible for enforcing limits on third party use of
                  NDM if NDM was bartered.

                    Bartering Provisions and Agreements with Feed Dealers

                    The State and Tribal Governments instituted a bartering provision
                    which allowed producers to barter their allocation of NDM for a
                    minimum value of $80 per ton, which they could then use to
                    purchase feed of their choosing, with or without NDM. As discussed
                    in Finding 1, the bartering provision was a significant factor in the
                    emergence of a secondary market within which USDA NDM was
                    bought and sold for profit. The emergence of this secondary market
                    resulted in NDM being diverted from its intended purpose; in some
                    cases, NDM was shipped to ineligible locations, including locations
                    outside the United States, and for ineligible purposes including
                    incorporation into human food products. The bartering provision
                    remained in effect for the 2004 NDM Initiative.

                    Although FSA was responsible for enforcing limits on the third party
                    use of NDM, it did not have a direct agreement with participating
                    feed dealers, and thus, was limited in its ability to initiate action
                    relative to suspected or identified violations of restricted use
                    provisions associated with the distribution and use of NDM. We
                    also noted that feed dealer agreements developed by State and Tribal
                    Governments did not always detail or properly refer to the USDA
                    restrictions on distribution and use of NDM.

                    For example, a feed dealer headquartered in Idaho contracted to sell
                    NDM to a non-feed company headquartered in Utah. The Idaho feed
                    dealer ordered 10 million pounds of NDM and had it delivered to
                    business locations in Salt Lake City and Ogden, Utah. The Idaho
                    feed dealer did not have any feed manufacturing facilities in Utah.
                    The contract with the State of Idaho stipulated that the feed dealer
                    comply with all USDA and State restrictions on the use of NDM.
                    However, NDM delivered to the two business locations in Utah was
                    mixed with other ingredients and shipped to locations outside the
                    United States under contracts with the non-feed company. The
                    non-feed company, and its activities involving NDM from NDMA,
                    was referred to the Office of Inspector General (OIG) Investigations.
                    (See Finding 6 for discussion of improper agency follow-up on
                    allegation of potential program abuse related to this case.)

USDA/OIG-AUDIT/03099-52-KC                                                      Page 14
                                          An interview with the manager of the Utah non-feed company
                                          revealed that he had contracted to have NDM re-bagged, or mixed
                                          with other ingredients and bagged for shipment. During the
                                          interview, the manager stated that 100 percent of the product left the
                                          United States; with 50 percent shipped overseas, and 50 percent
                                          transported to Mexico. In addition, some of the products were
                                          labeled “Preparation Alimenticia”, translated as “Food Blend”.

                                          FSA was limited in its ability to initiate administrative action against
                                          the third party responsible for blending NDM into a food product
                                          and exporting it outside the country as the agency did not hold a
                                          binding agreement with the third party purchaser of NDM or the feed
                                          dealer who sold NDM to the third party. Effective for the 2004
                                          NDM Initiative, FSA instituted direct agreements with the feed
                                          dealers. 4 The agreement specifies the restrictions on the use of
                                          NDM released under the initiative, which addresses our concern
                                          about the variances in feed dealer agreements developed by the
                                          States and Tribal Governments.

                                          Daily Feed Ration

                                          In some cases, States and Tribes adjusted the USDA recommended
                                          daily feeding ration of NDM for eligible livestock and offered
                                          expanded eligibility to producers in additional counties impacted by
                                          drought conditions. As such, producers in various States and Tribes
                                          did not receive equal benefits under the 2003 NDMA.

                                          For example, one State NDM coordinator said his/her State reduced
                                          the standard feeding allocation from 2 pounds to 1.8 pounds per day
                                          for beef cattle and buffalo and from .5 pounds to .45 pounds per day
                                          for sheep and goats. This reduction occurred because the State
                                          added seven counties that were not designated as D4 5 exceptional
                                          drought counties. As a result, producers in that State received feed
                                          allocations equal to 90 percent of the nationally established standard.
                                          The total NDM allocated to this State was about 66 million pounds,
                                          of which 6 million pounds were allocated to 1,117 producers in the
                                          seven added counties.

                                          For the 2004 NDM Initiative, the Memorandum of Understanding
                                          between CCC and the States and Tribes specifies that the States are
                                          now responsible to “only provide NDM released under this
                                          Memorandum to producers with eligible livestock in eligible
4
 Nonfat Dry Milk Restricted Use Sales Agreement.
5
  The drought monitor, a synthesis of multiple indices, outlooks, and news accounts is used to detect and monitor droughts. The intensity of the
drought ranges from D 0 (abnormally dry) to D 4 (drought-exceptional).

USDA/OIG-AUDIT/03099-52-KC                                                                                                          Page 15
                                         counties, as determined under the 2004 NDM Livestock Feed
                                         Initiative.” 6 This restriction should ensure equality of producer
                                         benefits from State to State.

                                         Inconsistencies in Compliance Programs

                                         Although State and Tribal Governments were responsible for the
                                         performance of compliance activities to ensure the accuracy of
                                         producer certifications of eligible livestock, the extent of planned
                                         compliance activities varied from development and selection of a
                                         random sample of livestock certifications to be verified to no
                                         planned compliance checks. USDA did not provide any guidance or
                                         requirements relative to development and execution of a compliance
                                         plan; neither did USDA provide any funding for State or Tribal use
                                         in developing a compliance plan. Most, if not all, were affected by
                                         lack of available funding.

                                      2004 Nonfat Dry Milk Livestock Feed Assistance Initiative

                                     The 2004 NDM Initiative still does not adequately address or provide
                                     resources to facilitate State and Tribal Government performance of
                                     compliance functions to ensure the integrity of program operations. In
                                     addition, FSA has not performed any studies or reviews to evaluate the
                                     effectiveness of State and Tribal administration of either program.

Recommendation 5

                                     For future livestock feed assistance initiatives where State and Tribal
                                     Governments are responsible for administering aspects of the
                                     assistance, develop specific requirements and performance measures
                                     for coordinating compliance functions based on evaluating past
                                     performance. Also, evaluate alternatives for providing or delegating
                                     resources (staff and funding) at the Federal level to accommodate the
                                     accomplishment of these required functions and select the alternative
                                     that represents the best use of available resources and assures program
                                     integrity.

                                     FSA Response.

                                     Due to urgent needs relating to Hurricanes Katrina and Rita, the Deputy
                                     Administrator for Commodity Operations has been required to shift
                                     many resources to handle the response to these devastating events. Due


6
    Memorandum of Understanding Between the CCC and the State of (Name of Participating State) Regarding Sales of NDM, Paragraph 2A.

USDA/OIG-AUDIT/03099-52-KC                                                                                                  Page 16
                  to this shift of resources, it could not provide comments to this
                  recommendation.

                  OIG Position.

                  Since FSA could not provide comments to this recommendation, we are
                  unable to reach management decision on this recommendation. In
                  order to reach management decision, we need the agency’s comments
                  as to its concurrence or non-concurrence with the recommendation,
                  corrective actions taken or planned, and timetables for implementing
                  the corrective actions.




USDA/OIG-AUDIT/03099-52-KC                                                   Page 17
Section 2.   Livestock Compensation Payments

                     We noted that livestock operations effected by non-drought related
                     disasters received the same livestock compensation payment rate as
                     livestock operators in counties designated as disaster areas due to
                     long-term drought conditions. The payment rate initially established
                     for LCP was based on economic analysis of the long-term conditions in
                     drought-related counties. However, when LCP-II expanded the
                     eligibility to all counties designated as disaster areas, the same
                     livestock compensation payment rate was applied to eligible livestock
                     operations in drought and non-drought related disaster areas. We also
                     noted that program applications submitted by USDA employees were
                     not always subject to appropriate approval authority and that random
                     spot checks were not always properly selected or completed.


Finding 3           Proof of Loss or Economic Analysis Needed to Ensure
                    Livestock Payments Are Commensurate with the Loss
                    Incurred

                     The original LCP provided program assistance to eligible livestock
                     operations in eligible counties designated for drought-related damages.
                     Since the LCP payment rates were tied to an economic analysis of the
                     effect of long-term drought conditions had on livestock operations,
                     producers qualified for LCP payments without a requirement for the
                     producers to show a proof of loss or the actual affect the qualifying
                     disaster had on their herds. However, when the LCP-II program was
                     announced, livestock operations in any county declared as a disaster
                     area by the Secretary or President became eligible and the qualifying
                     disaster did not have to relate to drought conditions. This occurred
                     because agency officials interpreted the Agricultural Assistance Act of
                     2003 as restricting the eligibility requirements under LCP-II to the
                     requirements under LCP, except for expanding the number of eligible
                     producers. As a result, producers whose livestock operations were
                     headquartered in States and counties with qualifying disaster
                     declarations, but were not affected by the qualifying events under the
                     initial program, received LCP assistance at a rate equal to those
                     producers whose livestock operations were affected by long-term
                     conditions such as drought. Although the livestock operations in those
                     counties not affected by long-term drought may have been affected by
                     the qualifying disaster, there was no economic analysis performed to
                     determine if the payment rate that the livestock operation received was
                     comparable to the actual loss incurred. We noted that $159 million in
                     LCP-II payments were issued to livestock producers in States and
                     counties that did not experience long-term drought conditions.
USDA/OIG-AUDIT/03099-52-KC                                                        Page 18
                                      Under LCP, assistance was provided to livestock operations in eligible
                                      States and counties including those designated by the Secretary of
                                      Agriculture as primary disaster areas for damages and losses due to
                                      drought. To receive LCP payments, a producer was required to own or
                                      lease an eligible livestock operation physically located in an eligible
                                      county. Eligible counties were those designated by the Secretary of
                                      Agriculture as primary disaster counties for drought-related damages
                                      and losses incurred between January 1, 2001, and September 19, 2002 7 .
                                      FSA disbursed over 440,000 payments totaling approximately
                                      $857 million in 2,142 counties in 42 States. 8 9

                                      Language included in the Agricultural Assistance Act of 2003 10
                                      expanded eligibility criteria for LCP-II to include any counties declared
                                      as a disaster by the Secretary or counties with Presidential disaster
                                      declarations related to major events or emergencies, not necessarily
                                      linked to losses associated with livestock operations. The statute
                                      defined a qualifying natural disaster as a natural disaster declared by
                                      the Secretary under Section 321 (a) under the Consolidated Farm and
                                      Development Act or a major disaster or emergency designated by the
                                      President under the Robert T. Stafford Disaster Relief and Emergency
                                      Assistance Act. FSA policy11 provides that eligible counties and losses
                                      for LCP-II assistance include those with or for sustained damages and
                                      losses due to any natural disaster. With funds provided by the
                                      Agricultural Assistance Act of 2003, FSA issued over 130,000 LCP-II
                                      payments totaling about $234 million in 2,464 counties in 50 States as
                                      well as in Puerto Rico.

                                      For LCP, the analysis of the need for assistance to producers in certain
                                      States and counties to offset losses due to drought (OIG emphasis) was
                                      prepared by the USDA’s Economic Research Service (ERS). The LCP
                                      payment rate was supported by analysis performed by ERS, including
                                      an evaluation of various long-term conditions and economic impacts
                                      that would not necessarily be measurable in lost head of livestock.
                                      When the Agricultural Assistance Act of 2003 expanded LCP to
                                      include other major events and emergencies that were short in duration
                                      (i.e. flood or storm), were not natural disasters (i.e. Space Shuttle
                                      Columbia disaster and terrorist attacks), or were not impacting on
                                      individual property (i.e. snow removal on public roads), no additional
                                      analysis was performed to determine how these events would/should
                                      impact the LCP payment rate. According to FSA officials, FSA was

7
  The Secretary approved primary counties for disaster designation as requested by State Governors or Tribal Leaders of Indian reservations.
8
  Funding for LCP-I was made available under section 32 of the Agricultural Adjustment Act Amendment of August 24, 1935.
9
  Per LCP application data provided by the FSA Kansas City Commodity Office as of July 21, 2003.
10
   Agricultural Assistance Act of 2003 dated February 20, 2003.
11
   Notice DAP 157; paragraph 2 B, dated March 27, 2003.

USDA/OIG-AUDIT/03099-52-KC                                                                                                          Page 19
                       required to administer LCP-II under the same terms as LCP and
                       therefore, it relied on the earlier economic analysis and payment rates.
                       This resulted in producers whose livestock operations were located in
                       States and counties with qualifying disaster declarations, but not
                       directly impacted by the declared disasters, receiving assistance at the
                       same rate as livestock producers whose operations were subject to
                       prolonged drought conditions.

                       We analyzed disaster declarations for the eligible time frames
                       encompassing LCP-II. We identified the disaster declarations as
                       Secretarial vs. Presidential and the disaster conditions as drought vs.
                       non-drought.     Within our analysis, we identified approximately
                       $112 million paid to producers for Presidential declarations
                       representing non-drought conditions. We identified an additional
                       $30 million paid to producers for combinations of Presidential and
                       Secretarial declarations representing non-drought declarations, and
                       another $17 million paid to producers in counties with Secretarial
                       declarations for non-drought conditions. In total, approximately
                       $159 million was paid to producers through LCP-II for non-drought
                       conditions.

                       In our view, the LCP assistance should have been directed only to those
                       in need. Additional eligibility requirements, such as proof of loss,
                       should be specified to ensure the appropriateness of USDA payments
                       or the payment rate should be tied to an economic analysis related to
                       the qualifying disaster area/event.

Recommendation 6

                       In the future, use the Secretary’s review authority and establish
                       supplemental eligibility criteria for locations experiencing disasters,
                       such as the submission by producers of proof of loss or by performing
                       an economic analysis that ties the disaster payment rate to existing
                       conditions within the eligible areas.

                       FSA Response.

                  FSA agrees that program benefits should not be provided to producers
                  who do not meet the eligibility requirements of the program. FSA also
                  agrees that Livestock Feed and Compensation Program benefits should
                  be based on actual eligible losses incurred by eligible producers.
                  Provided the statutory provisions authorizing the particular program
                  provides the Secretary the authority to establish certain eligibility
                  criteria and/or allows FSA to require proof of loss from producers, FSA
                  will take all necessary steps to ensure program benefits are targeted to
                  eligible producers who suffer eligible losses.
USDA/OIG-AUDIT/03099-52-KC                                                       Page 20
                                   OIG Position.

                                   We accept management decision for this recommendation. For final
                                   action, FSA needs to provide the Office of the Chief Financial Officer
                                   (OCFO) a copy of its reply to our official report.




Finding 4                          LCP Application Approval Procedures Not Followed

                                   LCP applications submitted by FSA and CO employees were not
                                   always subject to next higher-level approval authority as required by
                                   program procedure. Improper approval authority was attributed to a
                                   lack of understanding of LCP application approval requirements on the
                                   part of FSA employees. While we did not identify any ineligible
                                   applications to participate in LCP, proper approval authority is essential
                                   to support the integrity of program administration.

                                   FSA procedures for LCP-I 12 and LCP-II 13 provide that members of the
                                   county committee (COC) or designee shall approve or disapprove
                                   requests for LCP. The State office (STO) representative shall approve
                                   or disapprove requests submitted by CO employees, county executive
                                   directors and COC members. The Deputy Administrator, Farm
                                   Programs, shall approve or disapprove requests submitted by STO
                                   employees (including district directors), State executive director, and
                                   State committee members.

                                   Our review of the LCP application approval process in seven counties
                                   in three States, disclosed discrepancies in the approval authority for
                                   applications submitted by FSA and county level employees in three
                                   counties in three different States. We identified an application
                                   submitted by a district director that was improperly approved by the
                                   State executive director and applications submitted by COC members
                                   that were improperly approved by the county executive director or
                                   other members of the COC.

                                   We also noted an inconsistency in the application approval procedures
                                   for the 2002 LCP and the 2002 CFP. Whereas application approval
                                   procedures for the 2002 LCP required next higher-level approval
                                   authority, application approval procedures for the 2002 CFP did not.
                                   As these two programs were administered in approximately the same

12
     FSA Handbook 4-DAP, paragraph 9 C.
13
     FSA Handbook 4-DAP, paragraph 33 D.

USDA/OIG-AUDIT/03099-52-KC                                                                         Page 21
                   timeframe, CO personnel may have become confused or did not
                   completely familiarize themselves with the differences associated with
                   the two programs.

Recommendation 7

                   Issue a reminder to all COs to follow updated program procedures
                   relative to approval authority for disaster program applications
                   submitted by FSA and county level employees.

                   FSA Response.

                   FSA issued Notice Disaster Assistance Program (DAP)-234 to State
                   and county FSA offices reminding them of the applicable procedures
                   relative to approval authority for the 2003/2004 Livestock Assistance
                   Program currently begin administered.

                   OIG Position.

                   We accept management decision for this recommendation. For final
                   action, FSA needs to provide OCFO a copy of the cited notice
                   evidencing its actions were completed.

Recommendation 8

                   Establish consistent application approval procedures for disaster
                   programs, based on the next higher level of approval authority for
                   applications submitted by FSA and county level employees.

                   FSA Response.

                   FSA agrees there should be one uniform application approval
                   procedure for disaster applications submitted by FSA and county level
                   employees. FSA will develop a uniform application approval process
                   based on the next higher level of authority for disaster applications
                   submitted by FSA and county level employees.


                   OIG Position.

                   We concur with the planned corrective actions. In order to achieve
                   management decision, we need to know the timeframe when FSA will
                   accomplish its proposed development and implementation of the
                   uniform application approval process.

USDA/OIG-AUDIT/03099-52-KC                                                      Page 22
Finding 5                          Spot Checks Not Timely Completed and Procedures for
                                   Determining the Number of Spot Checks Required Were
                                   Unclear

                                   Random spot checks of livestock certifications for the 2002 LCP and
                                   the 2002 CFP were not always properly selected or timely completed.
                                   The correct number of random spot checks to be performed was
                                   understated due to limiting the universe of approved program
                                   applications to a date prior to the end of the signup period. In addition,
                                   procedures did not specify whether FSA employee applications were
                                   supposed to be required spot checks or part of the random spot checks.
                                   Also, random spot checks were not timely completed due to overriding
                                   priorities with other program administration activities. Improper
                                   sample selections and untimely completion of spot checks reduce the
                                   effectiveness of spot checks as an internal control attesting to the
                                   correctness of producer livestock certifications.

                                   LCP 14 and CFP 15 procedures required FSA COs to perform spot checks
                                   on no fewer than 5 percent of the approved program applications using
                                   the random selection method. Program procedures specified that spot
                                   checks were to be completed on no fewer than 5, but no more than
                                   60, program applications. Spot checks were to be completed within
                                   60 days of application approval. Program procedures further provided
                                   that spot checks performed for the 2002 CFP could also be used to
                                   fulfill spot check responsibilities for the 2002 LCP.

                                   We reviewed the LCP and CFP spot check procedures administered in
                                   three States and seven counties. Our review disclosed discrepancies in
                                   the sample selection of applications for spot check in three of the seven
                                   counties visited. We noted instances where insufficient numbers of
                                   random sample selections were identified due to the fact that a
                                   complete universe of approved program applications was not available
                                   at the time the original sample selection was made. Procedures
                                   required that spot checks be performed within 60 days of application
                                   approval, despite the fact that the timeframe for submitting program
                                   applications exceeded 60 days. Thus, the spot check process was
                                   initiated prior to the final date for submission of program applications,
                                   resulting in an underestimation of the total number of required spot
                                   checks and eliminating some program applications from spot check
                                   consideration. We also identified an instance where a judgmentally
                                   selected sample of program applications submitted by FSA and CO

14
     FSA Handbook 4-DAP, paragraph 10A.
15
     Notice DAP-136, paragraph 3E.

USDA/OIG-AUDIT/03099-52-KC                                                                         Page 23
                   employees was used to supplement an understated sample of randomly
                   selected spot checks.

                   We noted that randomly selected spot checks were not timely
                   completed in four of the seven counties visited. Of the 199 LCP
                   applications randomly selected for spot check by the seven COs, only
                   122 were timely completed (61 percent). Of the 31 CFP applications
                   selected for spot check by the three COs in Nebraska, 25 were timely
                   completed (81 percent). Field level personnel attributed the untimely
                   completion of spot checks to overriding priorities associated with the
                   administration of other FSA programs. Timely conduct of spot checks
                   is essential to provide meaningful analysis related to the accuracy of
                   producer provided certifications of eligible livestock.

Recommendation 9

                   Revise program procedures to include a clear explanation of the
                   methodology to be followed for manually selecting random samples of
                   program applications for spot check, including a discussion on how to
                   expand the sample selection process when spot checks must be initiated
                   prior to the end of program sign up.

                   FSA Response.

                   The 2002 LCP, on which the findings and recommendation are based,
                   is no longer an active program. There is currently no LCP being
                   administered.

                   FSA is hopeful that as more programs are transitioned to a web-based
                   format, the selection of program applications for spot check will be an
                   automated process that can be triggered at the applicable time to ensure
                   a true random sample of all applicable applications is selected.
                   However, FSA will review current disaster program procedures relating
                   to the spot-check selection process, and ensure such procedures provide
                   a clear explanation of the methodology to be followed. FSA will also
                   ensure the applicable procedures provide clear instructions relating to
                   when and how the sample selection of applications should be expanded.

                   OIG Position.

                   We concur with the planned corrective actions. In order to achieve
                   management decision, we need to know the timeframes for reviewing
                   the disaster program procedures and modifying the applicable
                   procedures, if necessary.


USDA/OIG-AUDIT/03099-52-KC                                                       Page 24
Recommendation 10

                    Clarify program procedures to specify whether applications submitted
                    by FSA and CO employees are subject to the random sample selection
                    process or constitute required spot checks to be completed in addition
                    to the random sample selection process.

                    FSA Response.

                    The 2002 LCP, on which the finding and recommendation are based, is
                    no longer an active program. There is currently no LCP being
                    administered. However, FSA will review current disaster program
                    procedures relating to spot-check selection procedures and ensure such
                    procedures provide clear instructions relating to whether applications
                    submitted by FSA and county office employees are subject to the
                    random sample selection process or constitute required spot checks to
                    be completed in addition to the random selection process.

                    OIG Position.

                    We concur with the planned corrective actions. In order to achieve
                    management decision, we need to know the timeframes for reviewing
                    the disaster program procedures and modifying the applicable
                    procedures, if necessary.




USDA/OIG-AUDIT/03099-52-KC                                                       Page 25
Section 3. Potential Program Violations Not Referred to OIG

Finding 6                               Referrals of Potential Program Abuse Not Always Subject to
                                        Appropriate Follow Up

                                        We identified two instances where FSA personnel were advised of
                                        possible program violations involving the distribution and use of NDM
                                        and failed to followup or refer the allegations to the OIG, as required
                                        by Departmental regulations and FSA directives. Field personnel
                                        became aware of the potential program violations and initiated referral
                                        of the information through the agency chain of command. However; in
                                        the processing of the potential referral through the agency, the referrals
                                        were overlooked. We also noted that FSA had not established a formal
                                        tracking system to monitor the receipt, followup, and resolution of
                                        complaints, allegations, and referrals of potential improper acts.
                                        Subsequent followup on these referrals by OIG and KCCO personnel
                                        disclosed violations of the 2002 CFP and 2003 NDMA provisions
                                        related to authorized distribution and use of NDM released for
                                        supplemental livestock feed.

                                        Department regulations 16 provide that each USDA employee will
                                        report to OIG or proper officials any instances of known or suspected
                                        violations or irregularities in USDA programs. FSA Handbook 9-AO,
                                        Audits and Investigations, provides instructions to FSA employees to
                                        immediately report to OIG known or suspected illegal activities that in
                                        any way relate to their position or function.

                                        In conjunction with our review of the 2002 CFP, we identified a feed
                                        dealer in Nebraska that requested delivery of 10 truckloads of NDM to
                                        a location in Anthony, Kansas. In an effort to verify whether NDM
                                        was intended for cattle normally headquartered in Nebraska, or the
                                        NDM was to be mixed into a livestock feed product and returned to
                                        Nebraska for feeding purposes, we contacted the FSA county executive
                                        director (CED) on October 17, 2003, to obtain information about the
                                        Kansas producer and livestock operation designated as the delivery
                                        point for NDM. The CED verified that producers in the State of
                                        Kansas were not eligible to receive assistance under the 2002 CFP and
                                        yet the producer had received and fed NDM to livestock located in
                                        Kansas.     The CED provided documentation to show that on
                                        February 28, 2003, her findings were referred to the Kansas State FSA
                                        Office for information and followup. Representatives of the Kansas
                                        State FSA Office contended the information was subsequently

16
     Departmental Regulation 1700-2, section 7 f (2), June 17, 1997.

USDA/OIG-AUDIT/03099-52-KC                                                                              Page 26
                  forwarded to FSA Headquarters, although we were not provided any
                  documentation to support a formal referral of the reported information.
                  Through follow up interviews, we determined that the feed dealer had
                  improperly ordered 21 truckloads of NDM for delivery to three
                  livestock producers who were not eligible to receive assistance under
                  the 2002 CFP. Transportation costs for the 21 truckloads of NDM
                  delivered to the three ineligible producers totaled $18,747.

                  In conjunction with our review of the 2003 NDMA, we contacted the
                  participating State Departments of Agriculture and Native American
                  Tribal Governments to determine the actions planned or intended with
                  respect to evaluating producer and feed dealer compliance with
                  provisions related to the distribution and use of 2003 NDM. Through
                  these contacts, we identified a referral from the Utah Department of
                  Agriculture to the Dairy and Domestic Operations Division of KCCO,
                  dated October 31, 2003, alleging improper distribution and use of
                  NDM within the State of Utah and providing a specific address where
                  suspected improper activity was taking place.               Inquiry with
                  representatives of KCCO disclosed that the referral had been
                  overlooked and not timely acted upon. In response to our inquiry,
                  KCCO and OIG coordinated in a joint examination of facilities
                  referenced in the Utah referral to establish the quantities and condition
                  of NDM on hand, as well as the intended use of NDM. The joint
                  examination was conducted in January 2004, and ultimately resulted in
                  the identification of a company involved in the blending of NDM into
                  an alternate food product that was exported to foreign countries,
                  possibly incorporated into human food products. This case is currently
                  under investigation for possible civil and/or criminal prosecution.

                  Throughout the course of our review, we coordinated with KCCO in
                  exchanging/sharing information related to potential violations of the
                  program/assistance provisions related to distribution and use of
                  allocated NDM. Through this sharing of information, we became
                  aware that agency personnel at various levels received an unspecified
                  number of other inquiries and complaints related to alleged improper
                  distribution and use of NDM, and in many cases, we were provided
                  follow up information related to the reviews and findings by agency
                  personnel. While inquiries and complaints related to the distributions
                  and use of NDM were primarily routed to the Warehouse Licensing and
                  Examination Division (WLED) of KCCO for analysis and follow up,
                  no formal tracking system was developed and maintained by WLED to
                  ensure that all inquiries and complaints received proper attention.



USDA/OIG-AUDIT/03099-52-KC                                                       Page 27
                    As agency personnel did not establish a formal tracking system for
                    receipt and resolution of these inquiries, we were not able to quantify
                    the number of referrals/complaints received or place the lack of timely
                    follow up for these two specific cases in perspective.

Recommendation 11

                    Establish and maintain a formal tracking system for receipt, follow up,
                    and resolution of complaints, allegations, and referrals at KCCO.

Recommendation 12

                    If collectible, initiate administrative action against the feed dealer to
                    recover the transportation costs associated with 21 truckloads of NDM
                    improperly ordered by a Nebraska feed dealer and delivered to three
                    producers who were not eligible for 2002 CFP benefits.

                    FSA Response.

                    Due to urgent needs relating to Hurricanes Katrina and Rita, the Deputy
                    Administrator for Commodity Operations has been required to shift
                    many resources to handle the response to these devastating events. Due
                    to this shift of resources, it could not provide comments to these
                    recommendations.

                    OIG Position.

                    Since FSA could not provide comments to these recommendations, we
                    are unable to reach management decision on these recommendations.
                    In order to reach management decision, we need the agency’s
                    comments as to its concurrence or non-concurrence with the
                    recommendations, corrective actions taken or planned, and timetables
                    for implementing the corrective actions.




USDA/OIG-AUDIT/03099-52-KC                                                         Page 28
Scope and Methodology
                      The scope of our review included the 2002 CFP, the 2003 NDMA, and
                      the livestock compensation programs (LCP and LCP-II). Within the
                      4 eligible States for the 2002 CFP, approximately 50,000 livestock
                      producers received nearly $137 million in feed credits for about
                      6 million head of livestock. A total of 242 million pounds of NDM
                      was shipped to over 1,800 feed dealers for the 2002 CFP and
                      transportation costs associated with these distributions of NDM totaled
                      over $6 million. The 2003 assistance was administered by 12 State
                      Departments of Agriculture and 7 Native American Tribal
                      Governments and approximately 330 million pounds of NDM was
                      distributed through November 2004. The LCP was administered in
                      2,149 counties, with eligible livestock producers receiving over
                      $857 million in payments. LCP-II was expanded to make over
                      700 additional counties eligible and LCP-II payments totaled over
                      $230 million.

                      To accomplish the review objectives, we gained an understanding of
                      the 2002 CFP, the 2003 NDMA, and the 2002 LCP administered by
                      USDA FSA. We reviewed applicable laws, regulations, policies, and
                      procedures developed by USDA related to distributions of NDM to
                      approved feed dealers, State Departments of Agriculture, and Native
                      American Tribal Governments for supplementing livestock feed and
                      disbursements of cash payments to livestock producers for losses
                      associated with designated disaster conditions. We conducted our
                      review through interviews of personnel representing FSA, State
                      Departments of Agriculture, Native American Tribal Governments,
                      feed dealers, and individual livestock producers. We also reviewed
                      records provided by each respective source to substantiate or refute
                      verbal statements and to establish the sequence of transpired events.
                      We performed the audit fieldwork during the period July 2003 through
                      November 2004.

                  We performed our review of the 2002 CFP through interviews of FSA
                  personnel and reviews of program records at two STOs and three COs
                  (see exhibit B for listing of STOs and COs). STOs were judgmentally
                  selected based on volumes of NDM distributed through the 2002 CFP.
                  COs were judgmentally selected based on levels of producer
                  participation, quantities of NDM requested by area feed dealers, and
                  recommendations by STO personnel. At each CO, we evaluated
                  program documents for 10 judgmentally selected producers based on
                  numbers and location of certified eligible livestock. We reviewed
USDA/OIG-AUDIT/03099-52-KC                                                   Page 29
                  name, address, identification number and business organization
                  information to ensure producers had not received unearned benefits.
                  We also evaluated field level procedures for selecting and performing
                  spot checks of certified eligible livestock.

                  We obtained database files from KCCO summarizing producer
                  designations of approved feed dealers, including individual producer
                  feed credit amounts, payments to approved feed dealers, and quantities
                  of NDM transported to approved feed dealers for the 2002 CFP. We
                  used the database records to identify potentially excessive quantities of
                  NDM ordered by approved feed dealers and we judgmentally selected
                  six feed dealers in Nebraska and Wyoming for review. We interviewed
                  personnel, reviewed records, and examined the storage condition of
                  NDM maintained in inventory. We also confirmed that information on
                  the three database files obtained from KCCO, specifically with regard
                  to feed dealer selection by producers, producer feed credits amounts on
                  submitted invoices and amounts of 2002 NDM delivered to dealers was
                  in agreement with documents obtained from feed dealers. We
                  interviewed personnel from KCFO to gain an understanding of the
                  process by which producer redeemed feed credits were invoiced to
                  KCFO for reimbursement of feed dealer expenses.

                  We evaluated administration of the 2003 NDMA through interviews of
                  personnel representing three State Departments of Agriculture and one
                  Native American Tribal Government (see exhibit B for listing of
                  offices reviewed). We also reviewed applicable records related to the
                  designation of State-approved feed dealers, allocation of producer feed
                  credits, and the distribution of NDM to designated delivery points. We
                  reviewed the KCCO plan for performing compliance reviews of NDM
                  quantities and delivery points. We accompanied KCCO personnel in
                  performing compliance reviews for eight approved feed dealers in
                  Kansas, Nebraska, and Utah. During these site visits, we interviewed
                  feed dealer personnel, reviewed records, and performed physical
                  inventories of NDM on hand to reconcile quantities of NDM that were
                  ordered, shipped, and used by the feed dealers. We also teamed with
                  KCCO personnel in performing follow up on two alleged cases of
                  misappropriated NDM within the State of Utah.

                  We evaluated FSA administration of the 2002 LCP through interviews
                  of FSA personnel and reviews of program records at three STOs and
                  seven COs (see exhibit B for identification of STOs and COs visited).
                  STOs and COs were judgmentally selected based on dollar value of
                  LCP payments issued under the original and expanded eligibility
                  criteria. STOs were consulted in selecting COs for review. At each
                  CO, we evaluated program documents for 10 judgmentally selected
USDA/OIG-AUDIT/03099-52-KC                                                       Page 30
                  program participants based on the number and location of certified
                  eligible livestock. Sample selections were completed using LCP
                  payment information obtained from the Kansas City Information
                  Technology Services Division, CO LCP registers, producer earnings
                  reports, and LCP producer payment history reports. Producer name,
                  address, identification number, and business organization information
                  was reviewed to ensure producers were eligible for the LCP payments.
                  We also evaluated field level procedures for selecting and performing
                  spot checks of certified eligible livestock.

                  As a result of a congressional inquiry, we obtained database files from
                  the Kansas City Information Technology Services Division
                  summarizing program payments issued at the State and county levels
                  under the original and expanded eligibility criteria for the 2002 LCP.
                  The LCP database files were built using approved participant
                  application information uploaded to the Kansas City Information
                  Technology Services Division from participating FSA COs. We
                  reviewed information related to the Secretarial and Presidential disaster
                  declarations to verify the eligibility of States and counties for LCP
                  assistance and used the developed information to evaluate and respond
                  to a Congressional inquiry regarding the appropriateness of payments
                  issued under expanded eligibility criteria.

                  Throughout the review, OIG coordinated with FSA personnel in
                  conducting compliance reviews of distributed NDM to designated feed
                  dealers. OIG and KCCO personnel worked in concert to identify
                  entities and individuals involved in suspected misappropriations of
                  NDM. Through these collaborative efforts, shipments of NDM to
                  identified entities and individuals were terminated and actions on the
                  part of these entities and individuals were referred to OIG
                  Investigations for pursuit of civil and/or criminal prosecution.

                  The review was performed in accordance with Government Auditing
                  Standards.




USDA/OIG-AUDIT/03099-52-KC                                                       Page 31
Exhibit A – Summary of Monetary Results
                                                                  Exhibit A – Page 1 of 1




Finding   Recommendation
Number        Number             Description          Amount       Monetary Results
   6            12         Transportation costs for   $18,747      Questioned Costs,
                           21 truckloads of NDM                 Recovery Recommended
                           delivered to ineligible
                           producers




USDA/OIG-AUDIT/03099-52-KC                                                   Page 32
Exhibit B – Sites Visited
                                                                      Exhibit B – Page 1 of 1



Assistance      State Level                              County Level

2002 CFP        Nebraska State FSA Office                Cuming County FSA Office
                                                         Scotts Bluff County FSA
                                                         Office

                                                         Washington      County        FSA
                                                         Office

                South Dakota State FSA Office


2003 NDMA       Nebraska Department of Agriculture
                South Dakota Department of Agriculture
                Utah Department of Agriculture
                Cheyenne River Sioux Tribal Government



2002 LCP        Nebraska State FSA Office                Cuming County FSA Office
                                                         Scotts Bluff County FSA
                                                         Office

                                                         Washington      County        FSA
                                                         Office

                Texas State FSA Office                   Hopkins County FSA Office
                                                         Milam County FSA Office

                Wisconsin State FSA Office               Grant County FSA Office
                                                         Green County FSA Office




USDA/OIG-AUDIT/03099-52-KC                                                       Page 33
Exhibit C – Agency Responses
                               Exhibit C – Page 1 of 5




USDA/OIG-AUDIT/03099-52-KC                Page 34
Exhibit C – Agency Responses
                               Exhibit C – Page 2 of 5




USDA/OIG-AUDIT/03099-52-KC                 Page 35
Exhibit C – Agency Responses
                               Exhibit C – Page 3 of 5




USDA/OIG-AUDIT/03099-52-KC                 Page 36
Exhibit C – Agency Responses
                               Exhibit C – Page 4 of 5




USDA/OIG-AUDIT/03099-52-KC                 Page 37
Exhibit C – Agency Responses
                               Exhibit C – Page 5 of 5




USDA/OIG-AUDIT/03099-52-KC                 Page 38
Informational copies of this report have been distributed to:

Administrator, FSA
ATTN: Agency Liaison Officer                                    (6)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Director, Planning and Accountability Division, OCFO            (1)
